Frank H. Scialdone
Email: fscialdone@mrrlaw.com
Direct Dial: (440) 424-0021
*Ohio state Bar Association-Certified
Specialist in Appellate Law

March 5, 2021

Via E-Filing
Scott S. Harris, Esq., Chief Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Mary Stewart, Administrator of the Estate of Luke Stewart v. City of Euclid, Ohio, et al.
United States Supreme Court - Case No.: 20-951

Dear Mr. Harris:
This firm represents the Respondent City of Euclid in the above matter.
The petition for a writ of certiorari was filed on January 11, 2021. The Respondent’s response is
now due, after one extension, on March 18, 2021. Respondent respectfully requests, under Rules
15.3 and 30.4, a second extension of time to and including April 19, 2021, within which to file a
response.
Due to scheduling conflicts and the press of other business commitments as well as the
inefficiencies related to remotely working under COVID-19, counsel respectfully requests
additional time within which to prepare a responsive brief that properly addresses all of the issues
raised in the petition.
Counsel for the Petitioner does not object to this extension.
As indicated by the enclosed certificate of service, we have concurrently served a copy of this
letter upon counsel for the Petitioner electronically and by paper. We have electronically filed a
copy of this letter.
Thank you for your courtesy and prompt consideration of this request.

March 5, 2021
Page 2

Very truly yours,
MAZANEC, RASKIN & RYDER CO., L.P.A.
/s/Frank H. Scialdone
Frank H. Scialdone
FHS/mob
cc:
Devi M. Rao, Esq.
Easha Anand, Esq.
Sarah Gelsomino, Esq.
Jacqueline Greene, Esq.
Terry H. Gilbert, Esq.
Andrew J. Pincus, Esq.
Edward J. Bennett, Esq.
Anna K. Tsiotsias, Esq.
Carolyn M. Wesnousky, Esq.
Wesley Hottot, Esq.
Marie Miller, Esq.

EUCLID-170098A/Request for 2nd extension

CERTIFICATE OF SERVICE
A copy of the correspondence to Scott S. Harris, Esq., Chief Clerk, requesting a second
extension to respond to the Petition for a Writ of Certiorari was filed electronically on March 5,
2021 and served via email and by depositing same in first-class United States mail, postage
prepaid, to the following:
Devi M. Rao
Counsel of Record
Roderick & Solange
MacArthur Justice Center
501 H Street NE, Suite 275
Washington, DC 20002
Devi.rao@macarthurjustice.org
Easha Anand
Roderick & Solange
MacArthur Justice Center
2443 Fillmore St., #380-15875
San Francisco, CA 94115
Easha.anand@macarthurjustice.org
Sarah Gelsomino
Jacqueline Greene
Terry H. Gilbert
Friedman & Gilbert
50 Public Square, Suite 1900
Cleveland, OH 44113
sgelsomino@f-glaw.com
jgreene@f-glaw.com
tgilbert@f-glaw.com
Counsel for Petitioner

Wesley Hottot
600 University St., Suite 1730
Seattle, WA 98101
whottot@ij.org
Marie Miller
901 North Glebe Road, Suite 900
Arlington, VA 22203
mmiller@ij.org
Counsel for Institute for Justice
Edward J. Bennett
Anna K. Tsiotsias
Carolyn M. Wesnousky
Williams & Connolly LLP
725 Twelfth St., N.W.
Washington, DC 20005
ebennett@wc.com
Counsel for Professor Seth Stoughton and
Policing Scholars
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
apincus@mayerbrown.com
Counsel for Legal Scholars
/s/Frank H. Scialdone
JAMES A. CLIMER (0001532)
FRANK H. SCIALDONE (0075179)*
*(COUNSEL OF RECORD)
100 Franklin’s Row

34305 Solon Road
Cleveland, OH 44139
(440) 248-7906
(440) 248-8861 – Fax
Email: jclimer@mrrlaw.com
fscialdone@mrrlaw.com
Counsel for Respondent City of Euclid

2

